Northeast Credit Union

Signature Visa Disclosure - Federal Truth in Lending Act
Details of Rate, Fee, and Other Cost Information

As required by law, rates, fees and other costs of this credit card are disclosed here. All account terms are governed by the VISA Cardholder Agreement
sent with the card. Use of the card constitutes acceptance of the terms of the Account and Agreement. Account and Agreement terms are not guaranteed
for any period of time; all terms may change in accordance with the Agreement and applicable law.
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR) for Purchases

14.99% APR

This APR will vary based on the Prime Rate.

APR for Balance Transfer

14.99% APR
This APR will vary based on the Prime Rate.

APR for Cash Advance

14.99% APR
This APR will vary based on the Prime Rate.

Minimum Payment

2% of your balance with a minimum payment of $20 or outstanding
balance, whichever is less.

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your entire
balance by the due date each month.

For Credit Card Tips From the Consumer Financial
Protection Bureau

To learn more about factors to consider when
applying for or using a credit card, visit the website
at http://www.consumerfinance.gov/learnmore.

How We Calculate Your Balance

Purchases: We use a method called “Average Daily Balance”
(including new purchases).
Cash Advances: We use the “Average Daily Balance” with interest
charged from the day of the cash advance.

FEES
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
• Transaction Fees for Purchases

None
None
None
None

Penalty Fees
• Late Payment (For all states except Maine)
(Late fee is based on balance owed, but will not exceed the 		
amount of payment past due)
•

Late Payment (Maine Residents*)
(Late fee is based on balance owed, but will not exceed the 		
amount of payment past due)

Less than $10 = $0
$10.00 - $5,000 = $10
$5,000.01 - $10,000.01 = $20
$10,000.01+ = $25
Balance less than $10 = $0
Balance $10 or more = $10 or 5% of the past due amount,
whichever is greater, not to exceed $25 and not to exceed the
amount of the payment past due.

BILLING RIGHTS
Information on your rights to dispute transactions and how to exercise those rights is provided in your Account
Agreement.
SIGNATURE VISA STANDARD DAILY PERIODIC RATE IS 0.041068
Rate is in effect March 18, 2020 and is subject to change.
VARIABLE RATE INFORMATION
Variable rate based on Wall Street Journal Prime Rate + margin of 11.74%; rate can change at the end of the
calendar quarter. If the Prime Rate increases, variable APR’s will increase. In that case, you may pay more interest
and have a higher Minimum Payment Due.
DEFAULT STATUS AND REWARDS
If in default status (defined as having not made a minimum payment by 28-30 days after due date), any UChoose®
Rewards will be forfeited and no additional UChoose® Rewards will be earned. Existing UChoose® Reward Points
will be available for redemption.
HOW YOUR UCHOOSE® REWARDS PROGRAM WORKS
You will receive one point for each dollar of qualifying purchases, net of returns (net purchases) that you charge to
this card. Qualifying purchases do not include cash advances.1 No points are awarded for finance charges, fees,
foreign currency conversion charges or insurance charges to your account. Points will not be earned on purchases
deemed fraudulent. Unused points will expire if not used within 60 months.
HOW YOUR PAYMENTS ARE APPLIED
Payments will be applied in the following order, first to any LATE CHARGES owing, then to the FINANCE CHARGE
due, then to the outstanding principal balance (highest interest rate to the lowest interest rate).
EXPLANATION OF PENALTY FEES
Late Payment Fee: (All states except Maine) Any payment received more than 5 days after the due date shown on
the most recent statement will be charged a Late Payment Fee.
State of Maine*: Payment received more than 15 days after the due date shown on the most recent statement will
be charged a late payment fee.
OTHER FEES (if not paid in cash, they will be charged to your savings account)
Replacement Card Fee: $5.00 for each card
Credit/Debit Slip Photocopy: $12.00 for each copy
Statement Photocopy: $3.00

Cash advances also include convenience checks, ATM advances for overdraft protection, advances
through automated phone banking, online banking or PIN-based purchase transactions.
*
In accordance with Maine state law. LE4287.03.20
1

3872060

